           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
       STATE OF CONNECTICUT
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2008

        May 2010 A-77-10-00009




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                        SOCIAL SECURITY
MEMORANDUM


Date:      May 18, 2010                                                    Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Connecticut for the Fiscal
           Year Ended June 30, 2008 (A-77-10-00009)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Connecticut for the Fiscal Year ended June 30, 2008. Our
           objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           The Connecticut Auditors of Public Accounts performed the audit. The desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by the Connecticut
           Auditors of Public Accounts and the reviews performed by HHS. We conducted our
           review in accordance with the Council of the Inspectors General on Integrity and
           Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Connecticut Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The
           Department of Social Services (DSS) is the DDS’ parent agency.

           The single audit reported:

           •   Indirect costs were not equitably allocated to Federal programs, including SSA.
               Specifically, (1) administrative overhead costs were not allocated to all benefiting
               programs, (2) the hierarchy used to allocate costs did not provide a fair allocation to
Page 2 – Candace Skurnik


    benefiting programs, (3) one Random Moment Time Study (RMTS) observation did
    not appear to be reasonable because the program code did not coincide with the
    services received by the client, and (4) evidence could not be provided to show that
    management monitored the reasonableness of the RMTS (Attachment, Pages 1
    through 4). See Attachment, Pages 4 and 5 for DSS’ response to these findings.

•   Expenditures were not correctly allocated to Federal and State programs in
    accordance with the federally approved cost allocation plan because of expenditure
    coding problems (Attachment, Pages 6 through 11). See Attachment, Page 11 for
    DSS’ response.

We recommend that SSA:

1. Ensure that indirect costs are being equitably allocated to the Connecticut DDS.

2. Verify that DSS implemented expenditure coding procedures that will ensure only
   allowable costs are charged to SSA’s programs.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                Patrick P. O’Carroll, Jr.

Attachments
 Attachment
Page 1 of 11
 Attachment
Page 2 of 11
 Attachment
Page 3 of 11
 Attachment
Page 4 of 11
 Attachment
Page 5 of 11
 Attachment
Page 6 of 11
 Attachment
Page 7 of 11
 Attachment
Page 8 of 11
 Attachment
Page 9 of 11
  Attachment
Page 10 of 11
  Attachment
Page 11 of 11
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
